No. 20-1525

IN THE
SUPREME COURT OF THE UNITED STATES

LEWIS ARCHER
Petitioner
vs.
AMERICA’S FIRST FEDERAL CREDIT UNION
Respondent

On Petition for Writ of Certiorari To
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR REHEARING

LEWIS ARCHER
9070 O’Hara Drive
Mobile, Alabama 36695
251 367-8904

IN THE
SUPREME COURT OF THE UNITED STATES

No. 20-1525
LEWIS ARCHER
Petitioner
vs.
AMERICA’S FIRST FEDERAL CREDIT UNION
Respondent

On Petition for Writ of Certiorari To
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR REHEARING

Pursuant to Rule 44 of this Court, the petitioner
hereby respectfully petitions for re-hearing of this
case before a full nine-Member Court.
1

1. This

case

involves

issues

affected

by

President Biden’s announcement on June 24th, 2021,
that the

Coronavirus moratorium will not be

extended past July 31st, 2021.
2. Thousands, possibly millions of hardworking
families will lack equitable justice as they face
foreclosure issues after July 31st, 2021.
*******

For the foregoing reasons the petition for re­
hearing should be granted.
Respectfully submitted,

EWIS ARCH
Petitioner

JULY 4th, 2021
2

CERTIFICATE OF PETITIONER

I hereby certify that this petition for rehearing
is presented in good faith and not for delay.

(U AA,AVa A

LEWIS ARCHER
Petitioner

3

1

CERTIFICATE OF PETITIONER

I hereby certify that the grounds for this
petition for rehearing are limited to intervening
circumstances of a substantial or controlling effect or
to other substantial grounds not previously presented.

Petitioner

